i
_____________________________________________
No. 21IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________________
RICHARD MEYER
Petitioner,
v.
COMMONWEALTH OF KENTUCKY,
Respondent.
________________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE KENTUCKY COURT OF APPEALS
________________________________________________
PETITION FOR A WRIT OF CERTTIORARI
Joshua D Farley*
F. Todd Lewis
111 W. Washington Street
Suite 400
Louisville, KY 40202
(859) 816-5671
jdf@farleylaw.com
* Counsel of record

i
QUESTIONS PRESENTED
I.

DOES THE KENTUCKY COURT OF
APPEALS DECISION IN THIS CASE
STAND IN DIRECT CONTRADICTION
TO THIS COURT’S DECISION IN
TIMBS V. INDIANA, 139 S.Ct. 682
(2019)?

II.

DOES THE
PRESUMPTION OF
FORFEITABILITY FOUND
IN KENTUCKY REVISED
STATUTES (KRS) 218A
VIOLATE THE DUE
PROCESS CLAUSE?

ii
List of All Parties
Petitioner is Richard Meyer. Counsel of
record for Mr. Myer is the Hon. Joshua D Farley, 111
W Washington Street, Suite 400, Louisville,
Kentucky 40202.
Respondent is the Commonwealth of
Kentucky, represented by, Hon. Jeanne Anderson,
Special Assistant Attorney General and Hon. Daniel
Cameron, Attorney General of the Commonwealth of
Kentucky, 1024 Capital Center Drive, P.O. Box 2000,
Frankfort, Kentucky 40602-2000, (502) 696-5342,
Counsel for Respondent.
List of Proceedings Below
Commonwealth v. Meyer, 16CR3131 Jefferson Circuit
Court (Kentucky) Trial Court Forfeiture Order
..................................................................... 11/27/2017
Meyer v. Commonwealth, 2018-CA-000135-MR,
Kentucky Court of Appeals.
Opinion Affirming ...................................... 06/05/2020
Meyer v. Commonwealth, 2020-SC-0303, Kentucky
Supreme Court. Order Denying Discretionary
Review ......................................................... 12/09/2020

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED ...................................i
LIST OF ALL PARTIES ...................................... ii
TABLE OF CONTENTS ..................................... iii
TABLE OF AUTHORITIES ................................. v
OPINIONS AND PROCEEDINGS BELOW .. viii
JURISDICTION ................................................ viii
CONSTITUTIONAL PROVISIONS INVOLVED

.......................................................................... viii
STATEMENT OF THE CASE ............................... 8
1. Summary .................................................... 8
2. Preservation of Federal Question ........ 9
3. Facts ............................................................ 9
REASONS THE COURT SHOULD ISSUE THE
WRIT OF CERTIORARI .................................... 14
I. THE KENTUCKY COURT OF
APPEALS DECISION IN THIS CASE
STANDS
IN
DIRECT
CONTRADICTION
TO
THIS
COURT’S DECISION IN TIMBS V.
INDIANA, 139 S.Ct. 682 (2019)........................... 14

iv

II.
KENTUCKY
REVISED
STATUTES (KRS) 218A VIOLATES
THE DUE PROCESS CLAUSE. ......................... 16
CONCLUSION ..................................................... 21
APPENDIX ........................................................... 22

v
TABLE OF AUTHORITIES
CASES
Federal Cases
Barnes v. United States, 412 U.S. 837, 843-844 (1973)
................................................................................. 17
County Court of Ulster County v. Allen, 442 U.S. 140,
157, 99 S.Ct. 2213, 2224, 60 L.Ed.2d 777, 792 (1979)
................................................................................. 18
In re Winship, 397 U.S. 358, 364 (1970) ................ 17
K. C. R. Co. v. Turnipseed, 219 U.S. 35, 42
(1910) ....................................................................... 17
McDonald v. Chicago, 561 U.S. 742, 767,
130 S.Ct. 3020, 177 L.Ed.2d 894 (2010) ................. 14
Mullaney v. Wilbur, 421 U.S. 684 (1975) ............... 17
Timbs v. Indiana, 139 S.Ct. 682 (2019) ....... 14, 15, 16
Tot v. United States, 319 U.S. 463, 467 (1943) ...... 17
State Cases
Osborne v. Commonwealth, 839 S.W.2d 281
(Ky.1992) ............................................................. 15, 16
Smith v. Commonwealth, 339 S.W.3d 485, 487 (Ky.
App. 2010) ............................................................... 16

vi
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. XIV ……………………..passim
STATUTES AND RULES
Kentucky Revised Statutes 218A ................... passim

vii
OPINIONS BELOW
The Petitioner filed a CR 60.02 appellate
motion with the trial court. The trial court denied
this motion. The Order denying is attached here at
the Appendix. The trial court ruling denying
Petitioner’s CR 60.02 motion was appealed to the
Kentucky Court of Appeals, who issued an opinion
affirming the trial court’s denial on June 5, 2020.
The Kentucky Supreme Court denied discretionary
review on December 9, 2020.
JURISDICTION
This Court’s jurisdiction is invoked pursuant to
28 U.S.C. §1257(a). The Kentucky Court of Appeals
issued its Opinion affirming the trial court on June 5,
2020; and the Kentucky Supreme Court issued its
decision denying discretionary review on December 9,
2020 (and thereby affirming the Kentucky Court of
Appeals Opinion). This petition has been filed within
ninety days of the latter Order, as required by
Supreme Court Rule 13.1.
CONSTITUTIONAL PROVISIONS INVOLVED
The Due Process Clause of the Fourteenth
Amendment to the United States Constitution
provides in relevant part: “nor shall any State deprive
any person of life, liberty, or property, without due
process of law . . .”

8
STATEMENT OF THE CASE
1.

Summary

Petitioner was charged with trafficking
in marijuana under 8 ounces enhanced by a
firearm, based upon his possession of a
personal use amount of marijuana in a safe
next to an inoperable handgun. The
Commonwealth used this discovery to seize
nearly $500,000.00 in cash also found in the
safe.
At an evidentiary hearing, prior to
conviction, the Commonwealth relied upon a
presumption created by Kentucky Revised
Statutes (KRS) 218A.410, that money found in
proximity to drugs shall be forfeited, to order
the nearly $500,000.00 be forfeited. The trial
court failed to determine whether the amount
of the forfeiture was excessive, given that the
largest possible fine under Kentucky law was
$10,000.00. KRS 218A.410 placed the burden
upon the Petitioner to rebut the presumption.
The trial court ordered the totality of the cash
to be forfeited.
Immediately following forfeiture, the
Commonwealth dismissed all charges against
the Petitioner; proving that the indictment
was done solely in an effort to seize the
$500,000.00.
The Petitioner appealed. The Kentucky
Court of Appeals affirmed the forfeiture and

9
the Kentucky Supreme Court denied
discretionary review.

2.

Preservation of Federal Question

Petitioner questioned both the
excessiveness of his fine and constitutionality
of KRS 218A.410 with the trial court and
again at the Kentucky Court of Appeals. The
trial court addressed these arguments;
however, the Kentucky Court of Appeals
neglected to do so. See Appendix at 31-34 and
42, infra
3.

Facts

The origins of this case involve the
warrantless seizure, from Petitioner’s home, of
a very small amount of marijuana
undisputedly for personal use1, and nearly
$500,000.00 seized and ordered forfeited.
On May 26, 2016, Louisville police
detective Joe Tapp came to the home of
Petitioner Richard Meyer, claiming to be
present based on a “complaint” that someone
was smoking marijuana outside the house2.
The police bore no search warrant, nor does
the Commonwealth maintain they had any
lawful grounds for such. The responding officer
1
2

VR 10/13/17, at 1:05:09; 1:10:30; 1:23:44, et seq.
Tapp1, 0:00:00 to approx. 2:30:00

10
activated a body cam recorder and interacted
with the Petitioner outside the house3 briefly.
The officer later testified to having smelled
“fresh marijuana” from outside4. Upon asking
the Petitioner if he had marijuana in the
house Petitioner readily admitted that he did
have a small quantity5.
Petitioner led police to a safe where he
had explained his marijuana was and opened
it. Police obtained from the safe a bag
containing the remnants of a “dime bag” of
marijuana. At some point a single marijuana
cigarette was also found in the house. Police
readily admitted that the entire, small,
quantity of marijuana taken from the
Petitioner was clearly for his personal use.
Also, inside the safe was a broken
handgun, which no one disputes was lawfully
possessed by the Petitioner; and a large
quantity of U.S. Currency in packages6. Upon
questioning about the money, Petitioner told
police it was his7. Some considerable time later
Much, if not all, of the police interaction with
Appellant is recorded on body cam videos which were
tendered as exhibits by the Commonwealth during the
10/13/17 hearing. There are 10 separate videos on the
tendered disk, which are each entitled “Tapp1—
Redacted” through “Tapp10—Redacted,” and will be
referred to as such through this brief. Times referenced
on such exhibits are from the MP4 video player.
4 VR 10/13/17, at 1:01:45 et seq
5 Tapp1 at 0:04:10
6 The total was approximately $499,800. TR at 15.
7 Tapp4 at 17:00 to 20:00.
3

11
in this search of his house, after officers seated
the Petitioner and stood around him, they
began to demand “look at me: who’s money is
this?”8 and “I think you’re holding his money . .
. I know some of this belongs to Joe Lanham.”
One officer announces during this discussion
“lock him up, lock her up, call a car from the
Home of the Innocents9 to come get the kids.”10
Following this, Petitioner begins to agree with
officers that “some” of the money is Joe
Lanham’s, and eventually signs a form stating
this. Following his signing of the form,
Petitioner was then not arrested, nor was his
girlfriend, nor were the children taken to the
Home of the Innocents.
At the conclusion of the police visit,
Petitioner was charged by citation in
connection with the marijuana. The charge
was based entirely on the remains of
marijuana found in a small baggie described in
testimony as a “dime baggie,” as well as a “tin
can” and “cigarette pack” with a very small
amount of marijuana. To date, there has been
no dispute by the Commonwealth that these
quantities were solely for the personal use of
the Petitioner. Also found in the safe was a
firearm which Petitioner stated was broken,
and the Commonwealth did not dispute was
never proven to be operable. The entire
Tapp4 at 9:13.
The Home of the Innocents is well-known as the
shelter in Louisville to which children are taken when
removed from their families.
10 Tapp4 at 3:50
8
9

12
evidence that the firearm was connected in
any way to unlawful drugs was its being
placed in the safe which held the small baggie
of marijuana. The Petitioner has no prior
criminal record of any felony or serious
offenses or drug offenses.
Petitioner’s charge was pending in
District Court until August 3, 2016, when the
Commonwealth voluntarily dismissed it
without prejudice. The Petitioner was then
indicted nearly four months later, on
November 28, 2016, for trafficking in
marijuana under 8 ounces, enhanced by a
firearm. Finally, nearly a year after
Petitioner’s indictment, in October, 2017, an
evidentiary hearing was held with regard to
the Commonwealth’s Motion to Forfeit the
seized currency. The Commonwealth informed
the court that the forfeiture was essentially all
they were seeking, and that forfeiture “would
be determinative.” 11 The Commonwealth also,
without dispute, did not provide certified mail
notice, publication, nor any written notice12 to
the person they claimed owned the money in
lieu of Petitioner13.
The Commonwealth’s position at the
forfeiture hearing was built on a series of
VR 10/13/17; Opinion and Order 8/21/19, at p. 1
See KRS
13 Some 18 months later, a different prosecutor claimed
without proof that the previous prosecutor had
‘telephoned the attorney’ for this alleged alternative
owner.
11
12

13
inferences. There were vague claims that the
un-joined third person (Joe Lanham) alleged to
own the currency was a marijuana dealer, who
was indicted on some other day in connection
with some other quantity of marijuana held at
some other time.14 Because Petitioner
associated with this Mr. Lanham at some
point, the money in question must be proceeds
of drug transactions.
The trial court entered an order
forfeiting the entirety of the seized funds on
November 22, 2017; and the court then
dismissed the entirety of charges without
prejudice upon the Commonwealth’s Motion.
The trial court’s order of forfeiture contains no
findings of fact of any kind, nor any
application of law to the facts in this case. It
merely recites that the currency is forfeited,
and states how to distribute the funds.
New counsel for Petitioner filed a
motion challenging the legality of this
forfeiture on several bases, including the
constitutionality of the forfeiture. The trial
court ultimately denied the Petitioner’s postjudgment motion by Opinion and Order
entered August 21, 2019, and Appellant then
filed an appeal with the Kentucky Court of
Appeals.

Over the defense objection, the Commonwealth relied
solely on the fact of indictment for “proof” that
Lannham was a marijuana dealer. VR 10/13/17 at
1:29:00 to 1:31:00
14

14
The Kentucky Court of Appeals affirmed
the forfeiture while ignoring Petitioner’s
claims of unconstitutionality. The Kentucky
Supreme Court then denied discretionary
review. Petitioner now seeks certiorari with
this Court.
REASONS THE COURT SHOULD
ISSUE THE WRIT OF CERTIORARI
I. THE KENTUCKY COURT OF
APPEALS DECISION IN THIS
CASE STANDS IN DIRECT
CONTRADICTION TO THIS
COURT’S
DECISION
IN
TIMBS V. INDIANA, 139 S.Ct.
682 (2019).
In Timbs v. Indiana, 139 S.Ct. 682
(2019), this Court held that the Eighth
Amendment’s Excessive Fines Clause is an
incorporated protection applicable to the
States under the Fourteenth Amendment’s
Due Process Clause. Id. at 686-691. In doing
so this Court stated, “This safeguard, we hold,
is "fundamental to our scheme of ordered
liberty," with "dee[p] root[s] in [our] history
and tradition." Id. at 686-687, citing McDonald
v. Chicago, 561 U.S. 742, 767, 130 S.Ct. 3020,
177 L.Ed.2d 894 (2010). Specifically, this
Court found that the Excessive Fines Clause
was applicable to the States in forfeiture
actions. Id. at 690.

15
In Timbs, Petitioner was convicted of
crimes that lead to a civil forfeiture of his
vehicle. Id. at 686. Petitioner here was
ordered to forfeit nearly $500,000.00, without
conviction or trial.15 Petitioner was charged
with trafficking in marijuana under 8 ounces,
enhanced by a firearm. The financial penalty
for trafficking in marijuana under 8 ounces
with a firearm enhancement in Kentucky is no
more than $10,000.00.16 Petitioner was
punished by the Kentucky Courts through the
use of forfeiture at a rate nearly fifty (50)
times the fine permitted by statute. Certainly
if the forfeiture in Timbs that was nearly four
(4) times the permissible fine was ordered to
be reviewed by the lower courts for
excessiveness under the Eighth Amendment,
the clearly excessive forfeiture here should be
as well. Timbs at 686.
Petitioner alerted the Kentucky Court of
Appeals to the application of Timbs to his case;
however, this issue was ignored by the in their
opinion affirming the forfeiture. Never was
consideration given by Kentucky courts to
whether the forfeiture of nearly $500,000.00,
done without a conviction, was excessive.

The total was approximately $499,800. TR at 15.
KRS 218A.1421(2)(a) defines trafficking in marijuana
under 8 ounces as a Class A Misdemeanor, this is
enhanced by the firearm under KRS 218A.992 to a
Class D Felony. A Class D Felony is punishable by a
fine of up to $10,000.00 for a singular offense under
KRS 534.030(1).
15
16

16
The Petitioner requests that this Court
grant certiorari to order review by the
Kentucky courts of whether the forfeiture is
excessive under the guidance provided for in
Timbs v. Indiana, 139 S.Ct. 682 (2019) and the
Eighth Amendment’s Excessive Fines Clause.
II. KENTUCKY REVISED STATUTES
(KRS) 218A.410 VIOLATES THE DUE
PROCESS CLAUSE.
KRS 218A.410 governs Kentucky
forfeiture law. Under that statute, any
proceeds, including personal property
traceable to an exchange of a controlled
substance in violation of KRS 218A, are
subject to forfeiture.17 Furthermore:
It is well-established that the
Commonwealth bears the
burden of proof in forfeiture
actions. Osborne v.
Commonwealth, 839 S.W.2d 281
(Ky.1992). To meet its burden of
proof and make a prima facie
case, the Commonwealth must
produce " slight evidence of
traceability." Id. at 284. This
means that the Commonwealth
must " produce some evidence
that the currency or some
portion of it had been used or
was intended to be used in a
17

See KRS 218A.410(j).

17
drug transaction." Id. If the
Commonwealth provides
additional proof that the
currency sought to be forfeited
was found in close proximity,
then it is deemed sufficient to
make a prima facie case. If the
Commonwealth establishes its
prima facie case, the burden is
then on the defendant to rebut
this presumption by clear and
convincing evidence. Id.
Smith v. Commonwealth, 339 S.W.3d 485, 487
(Ky. App. 2010).
Inferences and presumptions are a
staple of our adversary system of factfinding.
It is often necessary for the trier of fact to
determine the existence of an element of the
crime -- that is, an "ultimate" or "elemental"
fact -- from the existence of one or more
"evidentiary" or "basic" facts. E.g., Barnes v.
United States, 412 U.S. 837, 843-844; Tot v.
United States, 319 U.S. 463, 467; Mobile, J. &
K. C. R. Co. v. Turnipseed, 219 U.S. 35, 42.
The value of these evidentiary
devices, and their validity
under the Due Process Clause,
vary from case to case, however,
depending on the strength of
the connection between the
particular basic and elemental
facts involved and on the degree

18
to which the device curtails the
factfinder's freedom to assess
the evidence independently. See
In re Winship, 397 U.S. 358,
364; Mullaney v. Wilbur, 421
U.S. at 702-703, n. 31.
County Court of Ulster County v. Allen, 442
U.S. 140, 157, 99 S.Ct. 2213, 2224, 60 L.Ed.2d
777, 792 (1979).
This Court defines a statutory presumption as
an evidentiary device which is constitutionally
permissible "which allows--but does not
require--the trier of fact to infer the elemental
fact from proof by the prosecutor of the basic
one and that places no burden of any kind on
the defendant." Ibid. A mandatory
presumption is a troublesome evidentiary
device. It tells the trier that they must find
the elemental fact upon proof of the basic fact,
unless the defendant has come forward with
some evidence to rebut the presumed
connection between the two facts. Ibid. KRS
218A.410 violates this rule.
KRS 218A.410(j) creates a presumption
that currency found in close proximity to
controlled substances ... are presumed to be
forfeitable. The statute then makes the
presumption a conclusive fact rather than a
mere rational presumption by posing an
insurmountable, and therefore constitutionally
impermissible, burden on the victim of the
forfeiture, stating: "The burden of proof shall

19
be upon claimants of personal property to
rebut this presumption by clear and
convincing evidence." Ibid.
Thus, the victim of the forfeiture is
required to prove a negative, not only to the
satisfaction of the trier of fact, but "by clear
and convincing evidence." Whether the
property is traceable to the drug transaction
may well be inferable from the totality of the
circumstances, but Congress has no power to
make the mere fact of proximity, standing
alone, conclusive proof that the money is drugrelated unless the victim of the forfeiture can
persuade the trier of fact to the contrary by
"clear and convincing evidence."
KRS 218A.410(j) violates the Due
Process Clause. For a legislature to create a
presumption that overrides the judicial
requirement for actual evidence and that
places a burden on the defendant to prove a
negative, is unconstitutional, at least as
applied to this case, and particularly since the
fundamental constitutional right of Due
Process is at issue. The presumption is
unconstitutional in this case, because without
its invocation, the Commonwealth has utterly
failed in its burden to demonstrate traceability
or forfeitability.
Here, the Commonwealth made its case
built on a pyramid of inference on inferences
and did not carry its burden. The evidence
showed that the currency seized was in a safe,

20
near an amount of marijuana so small that the
lead detective repeatedly conceded that this
was only for the Petitioner’s personal use.
Beyond that, though, the Commonwealth
wishes to rely upon vague claims that some
un-joined third person (Joe Lanham) was a
“known marijuana dealer,” who was indicted
on some other day in connection with some
other quantity of marijuana. Because
Petitioner associated with this Mr. Lanham at
some point (so goes the argument), the money
in question must be proceeds of drug
transactions.
This insecure foundation of inference
does not avail the Commonwealth to say that
the Petitioner’s marijuana was “in proximity
to” the currency, when they failed to offer any
proof that trafficking was occurring. The
Commonwealth’s “evidence” was nothing more
than proof premised upon a pyramid of
inferences, and as such is invalid for any
purpose.
The Petitioner requests that this Court
grant certiorari and declare KRS 218A.410 an
unconstitutional abridgement of the
separation of powers doctrine and a violation
of the Due Process Clause.

21
CONCLUSION
For the reasons set out above, the Court
should grant a writ of certiorari to review the
decision of the Kentucky Court of Appeals.

Respectfully submitted,
________________________
*JOSHUA D FARLEY
F. TODD LEWIS
* Counsel of Record

22

___________________________________________
__
No. 21IN THE
SUPREME COURT OF THE UNITED
STATES
___________________________________________
__
RICHARD MEYER
Petitioner,
v.
COMMONWEALTH OF KENTUCKY,
Respondent.
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE KENTUCKY COURT OF APPEALS
__________________________________________
APPENDIX

23
APPENDIX
ITEM

PAGE #

Order Denying Discretionary Review ............ 24
Opinion Affirming the Trial Court ................ 25
Jefferson Circuit Court Order Denying
Petitioner’s CR 60.02 Motion ......................... 35

24
RENDERED: DECEMBER 9, 2020
NOT TO BE PUBLISHED
Commonwealth of Kentucky
Kentucky Supreme Court
No. 2020-SC-0303
RICHARD MYER APPELLANT
APPEAL FROM JEFFERSON CIRCUIT
COURT
v.
COMMONWEALTH OF KENTUCKY
APPELLEE
ORDER
The motion for review of the decision of the
Court of Appeals is DENIED.

25
RENDERED: JUNE 5, 2020; 10:00 A.M.
NOT TO BE PUBLISHED
Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-000135-MR
HONORABLE MARY M. SHAW, JUDGE
ACTION NO. 16-CR-003131
RICHARD MYER APPELLANT
APPEAL FROM JEFFERSON CIRCUIT
COURT
v.
COMMONWEALTH OF KENTUCKY
APPELLEE
OPINION
AFFIRMING
** ** ** ** **
BEFORE: CLAYTON, CHIEF JUDGE;
ACREE AND LAMBERT, JUDGES.
CLAYTON, CHIEF JUDGE:
Richard Myer appeals from a Jefferson
Circuit Court order of forfeiture and an
opinion and order denying his subsequent
Kentucky Rules of Civil Procedure (CR) 60.02
motion to vacate that order. Myer raises
numerous arguments relating to the forfeiture
of almost $500,000 in cash seized from his safe
by the police. We affirm because Myer lacks
standing to contest the forfeiture.
On May 26, 2016, the police visited
Myer at his residence in Jefferson County

26
after receiving complaints that someone was
smoking marijuana outside the house.
Detective Joseph Tapp of the Louisville Metro
Police Department testified at the forfeiture
hearing that he could smell fresh marijuana
while standing by Myer’s front door. Myer
admitted to the police he had a small amount
of marijuana for personal use and voluntarily
led them to a safe in an upstairs bedroom. A
security camera in the room was trained on
the safe. Myer warned Tapp that there was a
broken gun in the safe. Inside the safe, Tapp
found a small amount of marijuana, the gun,
and a black computer-type bag containing
vacuum sealed plastic bags of cash. Myer
initially told the police the bag contained
$50,000, then raised that amount to $100,000.
Ultimately, the amount of packaged cash in
the bag was found to total almost $500,000.
According to Detective Tapp, in his
experience large quantities of packaged and
bundled cash are indicative of drug trafficking.
Specifically, he suspected a connection
between Myer and Joseph Lanham, a largescale marijuana dealer known to police. Tapp
had been conducting surveillance of Lanham
for some time and had observed Myer visit
Lanham’s address several times. Tapp had
pulled over several people who had visited
Lanham’s residence and almost all of them
had guns or drugs or both.
Upon questioning by detectives from the
narcotics division, Myer denied the cash was
his and said it belonged to Lanham. Sergeant

27
William Young of the Asset Forfeiture Division
testified Myer told him the cash was not his
and that he was holding it for Joseph Lanham.
Myer signed a currency seizure form
disclaiming ownership of funds totaling
$499,800. He signed another currency
seizure form claiming ownership of $560 in
cash, described on the form as “personal
money.” The currency was placed in tamper
proof bags and Sergeant Young told Myer to
give Lanham the receipts. A search of the rest
of the house uncovered an assault rifle, more
small amounts of marijuana, a digital scale,
and another handgun.
Later the same day, the police executed
a search of Lanham’s residence and found
$37,000 and several pounds of marijuana.
Several weeks later, the officers found
$300,000 buried in Lanham’s back yard, with
a surveillance camera trained on it.
Myer was initially charged by citation
with possession of marijuana. His charge was
pending in district court until August 3, 2016,
when it was dismissed without prejudice. Myer
was thereafter indicted on November 28, 2016,
for one count of trafficking in marijuana (less
than 8 ounces) while in possession of a firearm
(complicity).
The Commonwealth filed a motion
pursuant to Kentucky Revised Statutes (KRS)
218A.410 for the forfeiture of the $499,800 in
cash seized from Myer’s house. Following a
hearing on the motion, the circuit court

28
entered the Commonwealth’s tendered order
on November 22, 2017, directing the funds to
be forfeited. The indictment against Myer was
dismissed without prejudice on January 3,
2018. Myer filed an appeal of the forfeiture
order which was delayed by his attorney’s
failure to timely file a brief and by Myer
ultimately having to retain new counsel.
On April 2, 2019, Myer’s new counsel
filed a motion pursuant to CR 60.02(e) and (f)
to vacate the forfeiture order, and seeking the
return of the currency or for a new forfeiture
hearing. The motion argued that the forfeiture
violated Myer’s due process rights, constituted
an excessively disproportionate fine, and that
he received ineffective assistance of counsel at
the trial and appellate stages. The earlier
appeal was held in abeyance pending the
circuit court’s ruling on the CR 60.02 motion.
On August 21, 2019, the circuit court entered
an opinion and order denying the motion. The
appeal was thereafter returned to the active
docket.
In denying the CR 60.02 motion, the
circuit court explained that its decision to
order forfeiture of the $499,800 was based
primarily on Myer’s lack of standing to object
to the forfeiture of money he had expressly
disclaimed and stated belonged to Lanham.
“[T]he existence of a plaintiff’s standing is a
constitutional requirement to prosecute any
action in the courts of this Commonwealth[.]”
Commonwealth Cabinet for Health and Family
Services, Department for Medicaid Services v.

29
Sexton by and through Appalachian Regional
Healthcare,
Inc., 566 S.W.3d 185, 188 (Ky. 2018), reh’g
denied (Feb. 14, 2019), cert. denied
sub nom. Sexton ex rel. Appalachian Regional
Healthcare, Inc. v. Kentucky Cabinet for
Health and Family Services, 140 S. Ct. 448,
205 L. Ed. 2d 252 (2019). “[A]ll Kentucky
courts have the constitutional duty to
ascertain the issue of constitutional standing,
acting on their own motion, to ensure that only
justiciable causes proceed in court, because the
issue of constitutional standing is not
waivable.” Id. at 192 (emphasis in original)
(footnote omitted).
“The trial court’s ultimate
determination on the standing issue is a
pure legal question. Therefore, our review of
that issue is de novo. Under de novo review,
we owe no deference to the trial court’s
application of the law to the established facts.”
Interactive Gaming Council v. Commonwealth
ex rel. Brown, 425 S.W.3d 107, 111 (Ky. App.
2014) (citations omitted). On the other hand,
any “preliminary, factual determinations”
made by the trial court “are entitled to
deference.” Id. (citation omitted). “We cannot
reverse factual findings that are supported by
substantial evidence.” Id. (citation omitted).
“Substantial evidence is evidence of substance
and relevant consequence sufficient to induce
conviction in the minds of reasonable people.”
Id. at 111-12 (citation and internal quotation
marks omitted).

30
“Kentucky’s forfeiture statute was
intended by the legislature to be a civil, in rem
proceeding. Forfeitures pursuant to the statute
are specifically structured to be impersonal by
targeting the property itself. Personal property
may be seized without process preparatory to
forfeiture under KRS 218A.415(1). Nor does
the Fourth Amendment apply to suppress
evidence at a seizure hearing. [See KRS
218A.415(3)(a)(3.)].” Smith v. Commonwealth,
205 S.W.3d 217, 221 (Ky. App. 2006) (citation
omitted). “KRS 218A.410(1)(j), which describes
the types of property which may be seized for
forfeiture, places the burden on the claimant
to rebut by clear and convincing evidence the
presumption that ‘all moneys, coin, and
currency found in close proximity to controlled
substances, to drug manufacturing or
distributing paraphernalia, or to records of the
importation, manufacture, or distribution of
controlled substances, are . . . forfeitable[.]’
The Commonwealth need only produce ‘slight
evidence of traceability’ plus ‘proof of close
proximity’ in order ‘to sustain the forfeiture in
the absence of clear and convincing evidence to
the contrary.’” Id. (quoting Osborne v.
Commonwealth, 839 S.W.2d 281, 284
(Ky. 1992)).
As the factual basis for its finding that
Myer lacked standing to challenge the
forfeiture, the circuit court relied on the
testimony of three police officers at the
forfeiture hearing that Myer stated the
$499,800 in cash was not his,and on his
written disclaimer to that effect. The circuit

31
court also noted that Myer did not directly
state an interest in the funds during that
hearing, arguing instead that the presence of
the cash was not associated with his alleged
crime of possession of a small amount of
marijuana and a handgun. The court also
ruled that Myer did not have standing to
object to the forfeiture on behalf of another,
presumably Lanham.
The testimony at the forfeiture hearing
fully supports the circuit court’s findings, and
its conclusion that Myer lacked standing or
failed to assert any grounds for standing is
well-founded.
Under the sections of CR 60.02 relied
upon by Myer, a court “may, upon such terms
as are just, relieve a party or his legal
representative from its final judgment, order,
or proceeding upon the following grounds: . . .
(e) the judgment is void, or has been satisfied,
released, or discharged, or a prior judgment
upon which it is based has been reversed or
otherwise vacated, or it is no longer equitable
that the judgment should have prospective
application; or (f) any other reason of an
extraordinary nature justifying relief.” CR
60.02. The denial of such a motion is reviewed
for abuse of discretion. Partin v.
Commonwealth, 337 S.W.3d 639, 640 (Ky.
App. 2010), overruled on other grounds by
Chestnut v. Commonwealth, 250 S.W.3d 288
(Ky. 2008). The test for abuse of discretion is
whether the trial court’s decision was
“arbitrary, unreasonable, unfair, or

32
unsupported by sound legal principles.”
Commonwealth v. English, 993 S.W.2d
941, 945 (Ky. 1999) (citations omitted).
In his statement of the facts, Myer
alleges that the police employed coercive
techniques in questioning him at his home,
threatening to “lock up Myer and his
girlfriend” and take her children to a shelter,
apparently to force him to incriminate
Lanham. The circuit court rejected this
argument as grounds for relief pursuant to CR
60.02 because Myer was afforded an
opportunity at the forfeiture hearing to raise
any claims he was improperly pressured by
the law enforcement officers. “The purpose of
CR 60.02 is to bring before a court errors
which (1) had not been put into issue or passed
on, and (2) were unknown and could not have
been known to the moving party by the
exercise of reasonable diligence and in time to
have been otherwise presented to the court.”
Young v. Edward Technology Group, Inc., 918
S.W.2d 229, 231 (Ky. App. 1995) (citation
omitted). Myer does not explain why the claim
of police coercion could not have been raised at
the forfeiture hearing.
“KRS 218A.410(1)(j) [places] the burden
on a claimant to rebut by clear and convincing
evidence the presumption that the property, in
this case money, is forfeitable.” Harbin v.
Commonwealth, 121 S.W.3d 191, 196 (Ky.
2003), as modified (Dec. 18, 2003). Myer also
does not explain why he did not seek to rebut
this presumption at the hearing, which

33
afforded him an opportunity to claim
ownership of the funds and to identify their
source.
On appeal, Myer does not
unambiguously claim ownership or other
interest in the funds sufficient to provide him
with standing to rebut the presumption that
the funds are forfeitable. His argument on
appeal as to standing relates solely to the
Commonwealth’s alleged failure to notify
Lanham, whom he characterizes as an “alleged
alternative owner” of the funds and a
necessary party to the forfeiture proceedings.
At the hearing on the CR 60.02 motion, Myer’s
counsel accused the Commonwealth of never
joining as a party the person to whom the
disputed funds do belong, i.e., Lanham. “[T]he
principle ‘that some substantial claim to a
personal right must be alleged’ by a party is
part of the basic law of standing.” Bell v.
Commonwealth, Cabinet for Health and
Family Services, Dep’t for Community Based
Services, 423 S.W.3d 742, 750 (Ky. 2014)
(quoting Maupin v. Stansbury, 575 S.W.2d
695, 698 (Ky. App. 1978)). Myer has failed to
assert such a personal right. At no point does
he renounce his signed disclaimer form, or
expressly claim ownership or some other
substantial personal interest in the $499,800
cash recovered from his safe. Under the
circumstances, the circuit court did not abuse
its discretion in denying his CR 60.02 motion.
For the foregoing reasons, the Jefferson
Circuit Court’s order of forfeiture and its

34
opinion and order denying the CR 60.02
motion are affirmed. ALL CONCUR.
BRIEF FOR APPELLANT:
F. Todd Lewis
Louisville, Kentucky
BRIEF FOR APPELLEE:
Daniel Cameron
Attorney General of Kentucky
Jeanne Anderson
Special Assistant Attorney General
Louisville, Kentucky

35
16-CR-003131
JEFFERSON CIRCUIT COURT
DIVISION FIVE (5)
JUDGE MARY M. SHAW
COMMONWEALTH OF KENTUCKY,
PLAINTIFF
RICHARD MYER, DEFENDANT
OPINION AND ORDER
This action comes before the Court on a
motion for extraordinary relief under CR
60.02(e) and (f) brought by the Defendant,
Richard Myer, as regards a forfeiture order
entered in favor of the Plaintiff, the
Commonwealth of Kentucky. After careful
consideration of the record and the
memoranda of the parties, as well as the
applicable case, statutory, and procedural law
and being otherwise sufficiently advised, the
Court OVERRULES the motion.
FACTS
On May 26, 2016, law enforcement
officers visited Mr. Myer at his residence in
Jefferson County. Mr. Myer consented to a
search of the residence, whereupon officers
found $499,800.00 in cash. Mr. Myer was
thereafter indicted for trafficking while in
possession of a firearm on November 28, 2016,
and the Court conducted a forfeiture hearing
on October 13, 2017. The Court signed the

36
Commonwealth's tendered order, which the
clerk entered on November 22, 2017. Mr.
Myer's indictment was dismissed without
prejudice on January 5, 2018. Mr. Myer
appealed and on April 2, 2019 filed the
immediate motion challenging forfeiture. It is
the Court's understanding that the Court of
Appeals is holding the appeal in abeyance
pending a ruling on this motion.
Three Louisville Metro Police
Department (hereinafter "LMPD") officers
testified during the forfeiture hearing. Officer
Joseph Tapp testified that he visited Mr.
Myer's residence on May 26, 2016 and could
smell marijuana while standing by the front
door. Mr. Myer acknowledged the presence of
marijuana and consented to a search, leading
Detective Tapp to a small safe in an upstairs
room. A security camera mounted on the wall
or ceiling pointed in the direction of the safe.
Mr. Myer warned that there was a broken gun
inside, so Detective Tapp instructed him to
step aside for safety after unlocking the safe.
Detective Tapp then looked in the safe and
found the broken gun, a computer case that he
initially thought contained marijuana, and,
shortly afterwards, a small container of
marijuana. The computer case contained a
large amount of cash in $100 bills that had
been double wrapped and heat sealed. Mr.
Myer said he thought there may have been
$50,000.00, then changed the number to
$100,000.00. He said he was holding the
money for someone else and could not account
for where the money originated. Officers

37
conducted a broader search of the house and
found what the Commonwealth characterizes
as an assault rifle in attic space adjacent to
Mr. Myer's bedroom and a scale and handgun
in a downstairs bedroom. They also found a
small amount of marijuana in the living room.
Detective Tapp summarized why he
thought the cash was related to drug
trafficking, In his experience, large amounts of
packed and bundled cash are invariably
indicative of drug trafficking, He had been
surveilling a known trafficker, Joseph
Lanham, for. a while and had seen Mr. Myer
visit that address several times. Detective
Tapp had pulled over several people who had
visited Mr. Lanham's address and almost all of
them had guns and drugs or both. He
mentioned the camera's presence in
conjunction with evidence found at Mr.
Lanham's address later the same day, officers
executed a search of Mr. Lanham's residence
and found $37,000.00 and several pounds of
marijuana, and six weeks later, officers found
$500,000.00 buried in Mr. Lanham's back
yard. As with the small safe in Mr. Myer's
room, the location of the cash had a security
camera trained on it.
Detective Joseph Lamb testified that he
went to Mr. Myer's house to assist. He spoke
with Mr. Myer, who said the money belonged
to Mr. Lanham, the subject Of several drug
trafficking investigations. Mr. Lanham had
four separate indictments as of the day of the
hearing.

38

LMPD's asset forfeiture officer,
Sergeant William Young, also testified. He
also spoke with Mr. Myer about the cash in
question. Mr. Myer said the money was not his
and signed a disclaimer of ownership form;
Mr. Myer told Sergeant Young the cash
belonged to Mr. Lanham.
At the end of the hearing the Parties
agreed to submit simultaneous briefs. The
Commonwealth filed one, addressing the issue
of standing, while Mr. Myer did not. The Court
found the Commonwealth's position
persuasive and signed its tendered order.
Now asserting an ownership interest in
the money, Mr. Myers filed the immediate
motion arguing that many aspects of the
underlying case and forfeiture proceeding
require relief under CR 60.02(e) and (f). The
Parties presented their respective positions
during a hearing and submitted briefs
thereafter. The motion stands ready for a
ruling.
ANALYSIS
CR 60.02 provides as follows:
On motion a court may, upon
such terms as are just, relieve a
party or his legal representative
from its final judgment, order,
or proceeding upon the
following grounds: (a) mistake,

39
inadvertence, surprise or
excusable neglect; (b) newly
discovered evidence which by
due diligence could not have
been discovered in time to move
for a new trial under Rule
59.02; (c) perjury or falsified
evidence; (d) fraud affecting the
proceedings, other than perjury
or falsified evidence; (e) the
judgment is void, or has been
satisfied, released, or
discharged, or a prior judgment
upon which it is based has been
reversed or otherwise vacated,
or it is no longer equitable that
the judgment should have
prospective application; or (f)
any other reason of an
extraordinary nature justifying
relief. The motion shall be made
within a reasonable time, and
on grounds (a), (b), and (c) not
more than one year after the
judgment, order, or proceeding
was entered or taken. A motion
under this rule does not affect
the finality of a judgment or
suspend operation.
Courts have long proceeded cautiously under
subsection (f), CR 60.02's catch-all clause.
Lewallen v. Com., 584 S.W.2d 748, 749 (Ky.
App. 1979). "Relief under CR 60.02(f) is
available where a clear showing of
extraordinary and compelling equities is

40
made." Com. v. Bustamonte, 140 S.W.3d 581,
583 (Ky. App. 2004) quoting Bishir v. Bishir,
698 S.W.2d 823, 826 (Ky. 1985). Even then,
the movant is entitled to relief only if the
asserted grounds of relief are not encompassed
within the first five clauses of CR 60.02:
mistake, inadvertence, surprise or excusable
neglect, newly discovered evidence, perjury or
falsified evidence, and fraud. Id. Each of these
grounds point to information that becomes
available after judgment is entered that could
affect the ability to timely file an appeal.
The Court made November 22, 2017
ruling primarily on grounds that Mr. Myer
lacks standing to object to forfeiture of money
he disclaimed and said belonged to Mr.
Lanham. All three officers testified during the
hearing that Mr. Myer stated the cash was not
his, and Mr. Myer signed a written disclaimer
of the money. He did not directly state an
interest in the cash during the hearing,
instead arguing that the money's presence was
unassociated with his alleged crime, involving
possession of a small weight of marijuana and
a handgun. Unfortunately for Mr. Myer, on
several occasions he disclaimed an interest in
the money. As the cash was not his, he had no
standing to object to forfeiture. Additionally,
he has no standing to object to forfeiture on
behalf of another, and any arguments about
pressure from law enforcement officers cannot
be subject to a 60.02 motion because all of the
evidence relating to the arrest was before the
Court in 2017; Mr. Myer presents no new
evidence other than that related to his

41
attorney during the proceedings. Nevertheless,
although the motion must be overruled for
these reasons, the Court will address the other
arguments in turn as they entail analysis of
the Court's secondary ground for its order: the
forfeiture is not excessive given the
circumstances.
Mr. Myer argues that the forfeiture in
question represents an unconstitutionally
excessive fine. The Kentucky Constitution, 17,
states: "Excessive bail shall not be required,
nor excessive fines imposed, nor cruel
punishment inflicted." With this provision as
its guiding light, the legislature enacted KRS
418A.405 et seq., which governs forfeitures of
cash and other property associated with drug
trafficking. Specifically, cash is subject to
forfeiture:
Everything of value furnished,
or intended to be furnished, in
exchange for a controlled
substance in violation of this
chapter, all proceeds, including
real and personal property,
traceable to the exchange, and
all moneys, negotiable
instruments, and securities
used, or intended to be used, to
facilitate any violation of this
chapter; except that no property
shall be forfeited under this
paragraph, to the extent of the
interest of an owner, by reason
of any act or omission

42
established by him or her to
have been committed or omitted
without his or her knowledge or
consent. It shall be a rebuttable
presumption that all moneys,
coin, and currency found in
close proximity to controlled
substances, to drug
manufacturing or distributing
paraphernalia, or to records of
the importation, manufacture,
or distribution of controlled
substances, are presumed to be
forfeitable under this
paragraph. The burden of proof
shall be upon claimants of
personal property to rebut this
presumption by clear and
convincing evidence. The
burden of proof shall be upon
the law enforcement agency to
prove by clear and convincing
evidence that real property is
forfeitable under this
paragraph; and
KRS 418A.410(1)(j). The Kentucky Supreme
Court gave the following guidance on how to
proceed under the statute:
On examination of the foregoing
statute, it is apparent that any
property subject to forfeiture
under (j) must be traceable to
the exchange or intended
violation. This requirement

43
exists without regard to the
presumption which appears
later in the statute...
The Commonwealth may meet
its initial burden by producing
slight evidence of traceability.
Production of such evidence
plus proof of close proximity,
the weight of which is
enhanced by virtue of the
presumption, is sufficient to
sustain the forfeiture in the
absence of clear and convincing
evidence to the contrary. In
practical application, the
Commonwealth must first
produce some evidence that the
currency or some portion of it
had been used or was intended
to be used in a drug transaction.
Additional proof by the
Commonwealth that the
currency sought to be forfeited
was found in close proximity is
sufficient to make a prima facie
case. Thereafter, the burden is
on the claimant to convince the
trier of fact that the currency
was not being used in the drug
trade.
Osborne v. Com, 839 S.W.2d 281, 284 (Ky.
1992). If the Commonwealth prevails on this
burden of persuasion, the trial court must
determine "whether the forfeiture is grossly
disproportionate to the particular offense.

44
Some of the factors to be considered are the
gravity of the offense, the potential penalties,
the actual sentence, sentences imposed for
similar crimes, and the effect of the forfeiture
on innocent parties." Harbin v. Com., 121
S.W.3d 191, 197 (Ky. 2003). The impact of
Timbs v. Indiana, 139 S.Ct. 682 (2019) is not
as meaningful as argued by Mr. Myer because
Kentucky courts have recognized that the
Eighth Amendment's excessive fines clause
applies to forfeitures since at least 1997.
Harbin, supra at 197 citing Com. v, Fint, 940
S.W.2d 896 (Ky. 1997). That said, Timbs
makes clear that there is no longer a
distinction between in rem and in personam
forfeitures. Timbs, supra, at 686-87.
In the immediate action, the
Commonwealth presented persuasive evidence
given the applicable standard that the moneys
in the safe were the proceeds of drug
trafficking. The money was wrapped in plastic
consistent with other proceeds from trafficking
offenses; it was found next to marijuana; there
was a camera pointed at the safe similar to the
scenario encountered in Mr. Lanham's back
yard; Mr. Myer had been to Mr. Lanham's
property several times; Mr. Lanham was at
the time suspected of trafficking; cash was
found at Mr. Lanham's property bundled in a
similar manner; and Mr. Myer stated he was
keeping the money for Mr. Lanham. While
keeping cash and a firearm are innocuous in
and of themselves, this evidence creates a
strong inference that all the money originated
from illicit drug sales. In other words, the

45
forfeiture was not for possession of a small
amount of marijuana; it was because the
evidence created a strong inference that all the
money originated from trafficking.
It is for this reason that the forfeiture
was not unconstitutionally excessive; the
Commonwealth met the applicable burden of
proving all of the moneys were proceeds of
drug trafficking. This scenario is inapposite to
the ones cited by Mr. Myer; for example, it
could be an excessive penalty to seize an
automobile purchased with hard legally
earned cash as a result of the driver/owner
trafficking in a small amount of marijuana.
The property seized does not have a very close
relationship with the crime. But, here the
evidence is that the money was bundled
together and belonged Mr. Lanham, a
suspected drug trafficker, and was used to
facilitate trafficking. See United States v.
Ursery, 518 U.S. 267, 291 (1996) and Com, v.
Coffee, 247 S.W.3d 908, 911 (Ky. 2008).
Citing Com v. Burnett, 2012 WL
3144027 (Ky. App.) Mr. Myer next argues that
the Court lacked jurisdiction under KRS
218A.460 to hold a forfeiture hearing because
there was no underlying conviction. While the
statute's current iteration includes language
that arguably requires a conviction to move
forward with a forfeiture motion, the 1990
amendments included similar language and
the Osborne Court gave the following guidance
in 1992: "At the outset, it should be observed
that nothing in the forfeiture statute requires

46
criminal conviction of the person whose
property is sought to be forfeited... " 839
S.W.2d at 283. Mr. Myer's argument is
viscerally appealing, but the Court is bound by
Osborne's ruling.
Mr. Myer also argues he suffered
ineffective assistance of counsel during
pretrial proceedings, including the forfeiture
motion. He acknowledges being foreclosed
from filing a motion under RCr 11.42, but
makes substantively similar arguments as
those filed under the rule in support of his
contention that his situation is indeed
extraordinary. In addition to several other
alleged deficiencies, he argues that counsel
failed to object to the forfeiture motion on
grounds that Mr. Lanham was not afforded an
opportunity to be heard. Unfortunately for
Mr. Myer, he has no standing to argue
insufficient notice on behalf of Mr. Lanham;
given that he disclaimed ownership of the cash
he would not have been entitled to it had Mr.
Lanham participated. Further, this facet of
Mr. Myer's motion is not properly the subject
of CR 60.02, arguments about counsel's
performance notwithstanding. Nevertheless,
the Court will address the argument because
notice was of concern when reviewing the
motion in 2017.
KRS 218A.460(3) provides instruction
on when and how the Commonwealth must
give notice of a forfeiture motion. It follows in
relevant part:

47
. . . [I]f the owner of the
property is known in fact to the
Commonwealth at the time of
the hearing…the attorney
representing the
Commonwealth shall give
notice of the ancillary hearing
by registered mail, return
receipt requested, to each
person having such interest in
the property, and shall publish
notice of the forfeiture once
each week for two (2)
consecutive weeks in a
newspaper of general
circulation as defined in KRS
Chapter 424 in the county
where the forfeiture proceedings
will occur. The notice shall be
mailed and first published at
least four (4) weeks prior to the
ancillary hearing and shall
describe the property; state the
county, place, and date of
seizure; state the name of the
law enforcement agency holding
the seized property; and state
the name of the court in which
the ancillary hearing will be
held and the date of the
hearing. However, the
Commonwealth shall be
obligated only to make a
diligent search and inquiry as
to the owner of subject property;
and if, after diligent search and

48
inquiry, the Commonwealth is
unable to ascertain the owner,
the actual notice requirements
by mail shall not be applicable.
Thus, the Commonwealth need provide notice
only if the owner is known in fact. Here, the
Commonwealth suspected that Mr. Lanham
was the owner, but did not know in fact whose
it was, and there were compelling reasons for
anyone to disclaim the money, not the least of
which is additional scrutiny by law
enforcement and possible charges. Even
assuming the Commonwealth considered Mr.
Lanham to own the money in fact, it averred
that it gave Mr. Lanham's counsel notice of the
hearing, and counsel said Mr. Lanham would
not participate. While this notice is not to the
letter of KRS 218A.460(3), the Commonwealth
substantially complied such that he received
adequate due process. Also, it is difficult to
believe that anyone who has nearly
$500,000.00 in cash confiscated by law
enforcement would not carefully track its
whereabouts and attempt to recover it. Thus,
contrary to Mr. Myer's arguments otherwise,
the Commonwealth did not violate any notice
provisions in the way it participated in the
forfeiture proceedings.
ORDER
IT IS HEREBY ORDERED AND ADJUDGED
that Mr. Myer's motion is OVERRULED.
/S/ Mary Shaw, Judge

